                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    O'FFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A03090051                                                           11          Page 1 of 2



        We reviewed allegations1that a subject2had: 1) made false statements in an NSF proposal3narrative;
        and 2) failed to declare a conflict of interests (COI) when serving as a reviewer in the proposal
        review process.

        The subject submitted the proposal containing the alleged false,statements in response to a NSF
        program announcement that contained specific eligibility criteria with respect to prior research
        accomplishments4 and specific types of research that would not receive finding. The subject
        received an award under this NSF program. The annual report suggested that the subject had
        changed the scope of the project to include an area of research that NSF had said it would not find.
        The allegation suggested that the subject had intended fkom the beginning to perform research in this
        other area.

        We spoke with the program officerSto determine if a change in scope had indeed occurred. The
        program officer indicated that the awards made under the announcement fell into categories, which
        are defined, in part, by the amount of flexibility afforded to the PI. Long-term awards with more
        funding have much less flexibility than short-term awards with moderate funding. The short-term
        awards are intended as dress rehearsals for subsequent long-term awards and some tinkering is
        expected in the scope of the research. The PI'S award falls into the short-term category and in the
        opinion of the program officer the modifications noted in the annual report fit within the expected
        scope of the project.

        The COI allegation arose during the review of proposals in an interagencyprogram6in which NSF is
        a participant. The relevant MOU governing the proposal review process states that the initial review
        would be conducted under another agency's rules and not NSF's rules. Each participating agency
        would then select from the pool of the recommended proposals and apply its own review process and
        rules.

        During the initial review of the FY03 proposals, the subject reportedly failed to declare a COI
        involving a proposal submitted by a company for whom the subject is a s~bcontractor.~We




SF OIG Form 2 (11/02)
                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM
' Case Number: A03090051
                                                                             11    -
                                                                                          Page 2 of 2
                                                                                          --




     confirmed that: the subject had reviewed the proposal; the proposal was not recommended for
     further consideration by the participating agencies; and the subject had been employed as a
     subcontractor with the proposing organization within the preceding year. The interagency MOU
     stated that the rules of an agency other than NSF would govern the initial review and that the review
     process would produce a pool of proposals from which NSF may then select for funding. We
     contacted that agency and they reported that they found no conflict of interest. We accepted their
     finding but recognize that under the MOU a COI would likely have arisen if the proposal had been
     recommended and NSF considered funding it. The interagency program has changed its review
     procedures for the upcoming year such that these circumstances will not arise again. The subject has
     been advised of the importance of seeking appropriate advise for any conceivable, potential COIs
     when serving on a review panel that may result in the finding of proposals with NSF funds.
